No. 19-1307
_____________________________
IN THE
SUPREME COURT OF THE UNITED STATES
_____________________________
EDWARD THOMAS, Warden,
Petitioner,
v.
WILLIAM LEROY BARNES,
Respondent.
____________________________
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The respondent, William Leroy Barnes, asks leave to file the attached Brief
in Opposition to petition for a writ of certiorari without prepayment of costs and to
proceed in forma pauperis.
Please check the appropriate boxes:
[ x ] Respondent has previously been granted leave to proceed in forma
pauperis in the following court(s):
The Supreme Court of the United States
The United States Court of Appeals for the Fourth Circuit
[ ] Respondent has not previously been granted leave to proceed in forma
pauperis in any other court.
[ ] Respondent’s affidavit or declaration in support of this motion is attached
hereto.
[ x ] Respondent’s affidavit or declaration is not attached because the court
below appointed counsel in the current proceeding, and:
[

] The appointment was made under the following provision of law:
, or

[ x ] a copy of the order of appointment is appended.

1

This the 20th day of July, 2020.

M. Gordon Widenhouse, Jr.*
Rudolf Widenhouse
Post Office Box 2663
Chapel Hill, N.C. 27515
Telephone: (919) 967-4900 (voice)
mgwidenhouse@rudolfwidenhouse.com

*Counsel of Record

2

USCA4 Appeal: 18-5

Doc: 2

Filed: 09/04/2018

Pg: 1 of 3

FILED: September 4, 2018
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 18-5
(1:08-cv-00271-TDS-JEP)
___________________
WILLIAM LEROY BARNES
Petitioner - Appellant
v.
EDWARD THOMAS, Warden, Central Prison, Raleigh, North Carolina
Respondent - Appellee
___________________
ORDER
___________________
The court appoints M. Gordon Widenhouse, Jr. as lead counsel and George
Bullock Currin as co-counsel for the appellant pursuant to the provisions of 18
U.S.C. § 3599(c) and the Criminal Justice Act effective 08/30/2018.
In light of this appointment, appellate counsel is granted access to sealed
district court material, with the exception of ex parte or in camera material to which
defense counsel did not have access in the district court.
Counsel is referred to the Case Budgeting and Payment Memorandum for
information on budgeting requirements, appointment terms, obtaining a fee exempt

USCA4 Appeal: 18-5

Doc: 2

Filed: 09/04/2018

Pg: 2 of 3

PACER account for electronic access to documents in CJA cases, redacting private
and sensitive data from transcripts and other documents, and maintaining time and
expense records.
If counsel believes the costs of representation will exceed the court's average
costs, as set forth in the memorandum, counsel must file a CJA budget proposal (ex
parte) within 21 days of appointment using the entry SEALED DOCUMENT. If
counsel does not believe the costs of representation will exceed the court's average
costs, counsel must file a statement to this effect within 21 days of appointment
using the entry SEALED DOCUMENT.
CJA authorization for preparation of transcript is obtained by submitting an
AUTH-24 request in the district eVoucher system. New appellate counsel must
contact district eVoucher staff for appointment to the underlying district court case
in order to submit the AUTH-24 request for district judge approval and the CJA 24
voucher for transcript payment. Counsel must also submit a Transcript Order Form
to the court reporter and district court and file the same in the court of appeals with
the docketing statement. Upon filing of the Transcript Order Form, the Fourth
Circuit will set deadlines for completion of the transcript.
CJA 30 and 31 vouchers are submitted for payment through the Fourth
Circuit's CJA eVoucher system. Upon receiving email notification of this
appointment from eVoucher, counsel may create CJA 30 and 31 vouchers for use in
maintaining time and expense records and paying for expert services. See CJA

USCA4 Appeal: 18-5

Doc: 2

Filed: 09/04/2018

Pg: 3 of 3

eVoucher.
All case filings must be made using the court's Electronic Case Filing system
(CM/ECF). Counsel not yet registered for electronic filing should proceed to the
court's web site to register as an ECF filer. See Required Steps for Registration as
an ECF Filer.
For the Court--By Direction
/s/ Patricia S. Connor, Clerk

